Audit Report

Office of Community Oriented Policing Services Methamphetamine Grants 
Awarded to the Alabama Department of Public Safety,
Montgomery, Alabama

Audit Report GR-40-05-009


June 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Alabama Department of Public Safety (ALDPS).  The purpose of the grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  The ALDPS was awarded two grants, totaling $1,048,350, to train and equip Alabama Bureau of Investigation (ABI) agents to investigate and dismantle clandestine methamphetamine laboratories and to properly package and transport hazardous methamphetamine by-products.  In its grant applications, the ALDPS indicated that the grants would result in an increase in the number of arrests of methamphetamine distributors and dismantled methamphetamine laboratories.

We tested the ALDPSs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  We also tested whether the ALDPS had made progress in arresting methamphetamine distributors and dismantling methamphetamine laboratories.  We identified deficiencies in the areas of reporting, grant expenditures and recordkeeping to track the numbers of arrests (or cases) and dismantled laboratories needed to track grant effectiveness.  As a result of the deficiencies identified below, we question $113,748 in grant funds received and recommend an additional $18,000 in funds be put to better use.1
Specifically, we found the ALDPS:

did not submit or submitted late, all required program progress reports;

	was reimbursed $113,748 in unsupported and unallowable costs;

	received $18,000 more in grant funds than it needed to implement its methamphetamine program; and

	did not ensure law enforcement agencies submitted methamphetamine case reports to the states Criminal Information Center.  Accordingly, the grantee could not evaluate the effectiveness of the COPS Methamphetamine program.

Our report contains eight recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I of the report. 

We discussed the results of our audit with ALDPS officials and have included their comments in the report, as applicable.   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.